No. 20-

 

 

IN THE

Supreme Court of the Anited States

COCHLEAR CORPORATION, COCHLEAR LTD.,

Petitioners,
v.

ALFRED E. MANN FOUNDATION FOR
SCIENTIFIC RESEARCH, ADVANCED BIONICcs, LLC.

>

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,975 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 14, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
